          Office of Inspector General




April 20, 2006

LEE R. HEATH
CHIEF POSTAL INSPECTOR

SUBJECT: Audit Report – Postal Inspection Service’s Security Investigations Service
         Center (Report Number SA-AR-06-002)

This report presents the results of our self-initiated audit of the Postal Inspection Service
Security Investigations Service Center (SISC) (Project Number 03BN013SA002). Our
overall objective was to determine whether the SISC effectively and efficiently supports
the Postal Inspection Service’s mission.

The SISC generally followed policies and procedures to manage and safeguard closed
cases and process Freedom of Information Act (FOIA) requests. However,
opportunities exist to improve the overall management of the Background Security
Clearance Program, personnel security training, and the 1510 Mail Loss/Rifling Program
to more effectively and efficiently support the Postal Inspection Service’s mission.

We recommended the Chief Postal Inspector: (1) establish a comprehensive
management plan to address erroneous data included in the Security Clearance
Tracking System and reduce its carryovers of background investigations, (2) ensure
SISC security personnel are provided formal annual and refresher training to more
effectively manage and implement the personnel security program, and (3) ensure
Postal Inspection Service inspectors review all U.S. Postal Service (PS) Forms 1510,
Mail Loss/Rifling, complaints prior to complaints being destroyed. During the audit,
SISC staff initiated corrective actions to address carryovers for background security
clearances, personnel security training, and the 1510 Mail Loss/Rifling Program.

Management disagreed with establishing a comprehensive management plan
to address erroneous data in the Security Clearance Tracking System and reduce
its carryovers of background investigations. We do not plan to pursue this
recommendation through the formal audit resolution process. Management agreed to
ensure that Security Investigation Service Center personnel are provided formal annual
and refresher training. Management also agreed to ensure Postal Inspection Service
inspectors review all PS Forms 1510, complaints before the complaints are destroyed.
Management’s comments and our evaluation of these comments are included in the
report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Sandra Bruce,
director, Oversight of Investigative Activities, or me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI




Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachments

cc:   Lawrence E. Maxwell
      Zane M. Hill
      Mary Anne Gibbons
      Steven R. Phelps
Postal Inspection Service Security                                         SA-AR-06-002
 Investigations Service Center


                                     TABLE OF CONTENTS

 Executive Summary                                                                        i

 Part I

 Introduction                                                                             1

     Background                                                                           1
     Objective, Scope, and Methodology                                                    2
     Prior Audit Coverage                                                                 4

 Part II

 Audit Results                                                                            7

           Security Investigations Service Center Generally Supports the                  7
           Postal Inspection Service’s Mission

                Background Security Clearance Program                                  7
                Recommendation                                                        11
                Management’s Comments                                                 11
                Evaluation of Management’s Comments                                   12

                Personnel Security Training                                           12
                Recommendation                                                        13
                Management’s Comments                                                 14
                Evaluation of Management’s Comments                                   14

                1510 Mail Loss/Rifling Program                                        14
                Recommendation                                                        15
                Management’s Comments                                                 15
                Evaluation of Management’s Comments                                   15

 Appendix A. Fiscal Years 2004 and 2005 Schedule of Security                          16
             Investigations Service Center Open Cases

 Appendix B. Fiscal Year 2004 Average Number of Days to Process and                   17
             Grant Final and Interim Security Clearances

 Appendix C. Management’s Comments                                                    19
Postal Inspection Service’s Security                                                     SA-AR-06-002
 Investigations Service Center


                                       EXECUTIVE SUMMARY
    Introduction                  This report represents the results of our self-initiated audit
                                  of the Postal Inspection Service Security Investigations
                                  Service Center (SISC). Our overall objective was to
                                  determine whether the SISC effectively and efficiently
                                  supports the Postal Inspection Service’s mission.

    Results in Brief              The SISC generally followed policies and procedures to
                                  effectively and efficiently support the Postal Inspection
                                  Service’s mission. However, Postal Inspection Service
                                  officials could improve the overall management of the
                                  Background Security Clearance Program, personnel
                                  security training, and the 1510 Mail Loss/Rifling Program.

                                  Specifically, background investigation data SISC staff
                                  provided showed the Postal Inspection Service had a
                                  carryover of about 9,700 open security clearance cases at
                                  the beginning of fiscal year (FY) 2004, and 18,300 open
                                  security clearance cases at the beginning of FY 2005. We
                                  discussed our results with SISC staff during the audit and
                                  based on the results, SISC staff conducted further analyses
                                  and stated they identified an unexplainable glitch in the
                                  Security Clearance Tracking System (SCTS).1 According to
                                  SISC staff, this glitch resulted in SISC staff providing the
                                  U.S. Postal Service Office of Inspector General (OIG) with
                                  inaccurate information on background security clearances.

                                  Therefore, SISC staff requested the OIG disregard the data
                                  we analyzed starting with the beginning of FY 2004, but
                                  instead analyze the data starting with the beginning of
                                  FY 2005. Additionally, in November 2005, SISC staff
                                  provided the OIG with a FY 2005 status report, which
                                  showed there were approximately 5,700 sensitive and
                                  nonsensitive open clearances as of October 21, 2005.
                                  Appendix A provides a schedule of background
                                  investigation requests.

                                  After receiving the updated information from the SISC staff,
                                  the OIG determined the background security data provided
                                  by SISC staff starting with the beginning of FY 2004 was the
                                  same data they initially provided the OIG. To further
                                  validate the data, the OIG analyzed background security


1
  SCTS is an automated system that monitors and tracks background security clearances and processes real time
information that can not be recaptured.

                                                     i
Postal Inspection Service’s Security                                                        SA-AR-06-002
 Investigations Service Center


                                   clearance information2 the SISC submitted to the Office of
                                   Personnel Management (OPM), and determined the
                                   information was comparable to the number of requests
                                   the SISC staff initially provided the OIG starting with the
                                   beginning of FY 2004. Unless the number of requests the
                                   OPM processed for the SISC staff was inaccurate, we
                                   cannot agree with management’s assertion that the
                                   information SISC staff provided the OIG was inaccurate.
                                   However, we do acknowledge that as a result of our audit
                                   and based on the updated information SISC staff provided
                                   the OIG, it appears that management has initiated
                                   corrective actions to begin addressing the carryovers.

                                   The background investigation process is essential to
                                   managing the inherent risk of allowing U.S. Postal Service
                                   employees and other personnel access to sensitive or
                                   proprietary information. To ensure effective management
                                   of the security clearance process, security clearance data
                                   must be consistent, accurate, and complete to assist
                                   management with making decisions regarding current
                                   workload requirements, and the overall management of
                                   the Background Security Clearance Program.

                                   Further, 12 of the 15 SISC personnel responsible for
                                   reviewing and adjudicating security clearance requests had
                                   not received personnel security training within the past
                                   5 fiscal years. This occurred because the Postal Inspection
                                   Service did not have a requirement to provide annual and
                                   refresher training to staff processing security clearance
                                   requests. As a result of our audit, Postal Inspection Service
                                   officials initiated corrective actions during the audit to obtain
                                   supplemental personnel security training for SISC
                                   employees.

                                   Additionally, in FY 2004, the SISC received 37,852 Postal
                                   Service (PS) Form 1510, Mail Loss/Rifling, complaints, of
                                   which 16,247, or 43 percent, were determined to be
                                   unattractive,3 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

2
 “Workload Average Timelines for U.S. Postal Inspection Service in Memphis, FY 04 and up to July 2, 2005.”
3
  According to SISC personnel, attractive targets for theft include things like xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxx. While unattractive mail consists of items that are not considered attractive as targets for theft.


                                                         ii
Postal Inspection Service’s Security                                          SA-AR-06-002
 Investigations Service Center


                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                                 As a result of our audit, Postal Inspection Service officials
                                 initiated corrective actions during the audit and advised that
                                 all PS Forms 1510 will be forwarded to xxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. We will further
                                 assess the 1510 Mail Loss/Rifling Program during our
                                 ongoing audit of the CISC.

 Summary of                      We recommended the Chief Postal Inspector: (1) establish
 Recommendations                 a comprehensive management plan to address erroneous
                                 data included in the SCTS and reduce the number of
                                 carryovers for background security clearances, (2) ensure
                                 SISC security personnel are provided formal annual and
                                 refresher training to more effectively manage and implement
                                 the personnel security program, and xxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxx

                                 During the audit, SISC staff initiated corrective actions to
                                 address excess background security clearances and
                                 erroneous data included in the SCTS, additional personnel
                                 security training, and xxxxxxxxxxxxxxxxxxxxxxx

 Summary of                      For recommendation 1, management did not agree to
 Management’s                    establish a comprehensive management plan to address
 Comments                        erroneous data in the SCTS and reduce its carryovers of
                                 background investigations. Management stated that the
                                 OIG had data manipulation problems when analyzing
                                 security clearance data they provided the OIG on compact
                                 disc (CD). Management also stated that carryovers in
                                 background security clearances will always exist from
                                 one day to the next and from one year to the next.
                                 Additionally, management stated that the recommendation
                                 implied that the average processing time was excessive, but
                                 nothing in the report supports that assertion.

                                 For recommendation 2, management agreed to ensure
                                 that SISC personnel receive formal annual and refresher
                                 training to supplement personnel security training. xxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx


                                                  iii
Postal Inspection Service’s Security                                        SA-AR-06-002
 Investigations Service Center


                                 Management’s comments, in their entirety, are included in
                                 Appendix C.

 Overall Evaluation of           For recommendation 1, we disagree with management’s
 Management’s                    assertion that the OIG experienced data manipulation
 Comments                        problems when analyzing security clearance data, resulting
                                 in blank dates, future dates, and negative elapsed days for
                                 processing. SISC officials provided data to the OIG on a
                                 CD that could not be modified (read-only); therefore, the
                                 OIG could not manipulate the data. Further, SISC
                                 personnel provided the OIG with a written summary of
                                 interim and final clearances that we used to validate the
                                 data on the CD. Additionally, during our review of security
                                 clearance data, we notified SISC personnel of the
                                 erroneous data we identified and excluded it from our
                                 analysis.

                                 Additionally, the OIG did not conclude or report that
                                 processing times were excessive. The OIG concluded
                                 there were carryovers in FYs 2004 and 2005, and these
                                 carryovers did not result from delays in processing
                                 background security clearances by the OPM. However,
                                 based on further OIG analyses, SISC staff did not process
                                 requests in FY 2005 as quickly as they received them;
                                 therefore, there appeared to be a growing backlog in
                                 FY 2006. For example, in FY 2005, the average number
                                 of requests was about 6,940 and the average number
                                 completed was about 5,280, resulting in an average
                                 carryover of about 1,660 per month. Although management
                                 disagreed with this recommendation, we do not plan to
                                 pursue this recommendation through the formal audit
                                 resolution process.

                                 Management agreed with recommendation 2 and stated
                                 supervisors and managers will obtain annual background
                                 clearance training offered by the OPM. Management
                                 also agreed with recommendation 3 and stated inspectors
                                 use the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 Management comments and planned corrective actions for
                                 recommendations 2 and 3 are responsive, satisfy the intent
                                 of our recommendations, and should correct the issues
                                 identified in the finding.




                                                 iv
Postal Inspection Service’s Security                                                         SA-AR-06-002
 Investigations Service Center


                                             INTRODUCTION
 Background                        The Postal Inspection Service is responsible for ensuring
                                   the integrity of the mail and safeguarding the U.S. Postal
                                   Service by: (1) performing investigative, security and
                                   preventive services, and (2) enforcing approximately
                                   200 federal laws that protect the mail, postal employees,
                                   customers, and critical assets.

                                   The Chief Postal Inspector is designated as the security
                                   officer for the Postal Service and issues instructions and
                                   regulations on security requirements. Postal Service
                                   installation heads are responsible for ensuring the safety of
                                   postal employees, as well as the security and integrity of the
                                   mail and of all postal property entrusted to them. Further,
                                   Security Control Officers (SCOs) at Postal Service facilities
                                   are primarily responsible for ensuring the general security of
                                   facilities as required by policies and procedures.

                                   The Security Investigation Service Center (SISC) is one of
                                   the four service centers supporting the Postal Inspection
                                   Service’s mission. The SISC primarily oversees the
                                   Background Security Clearance Program for all regular and
                                   contract Postal Service employees. The SISC also
                                   manages the 1510 Mail Loss/Rifling Program, maintains
                                   closed case files, and processes Freedom of Information
                                   Act (FOIA) requests.4

                                   Background Security Clearance Program. All background
                                   security clearance information is electronically maintained in
                                   the SISC’s Security Clearance Tracking System (SCTS).5
                                   According to SISC personnel, the SCTS is the official Postal
                                   Inspection Service database for managing the background
                                   security clearance program. Further, security clearance
                                   documentation is maintained as follows:

                                        The SISC maintains documentation for career Postal
                                         Service employees.

                                        The administrative official for the contract maintains
                                         documentation for highway transportation contract
                                         employees.
4
  Based on information provided by Criminal Investigation Service Center (CISC) staff, the Postal Inspection Service
now requires all Postal Service (PS) Forms 1510, Mail Loss/Rifling Program, to be sent to the CISC and then
disseminated to the respective division for inspectors to review.
5
  The SCTS is designed to monitor and track security clearances requested and issued, and also actions taken by
SISC, Office of Personnel Management, and contractors performing work on behalf of the SISC.

                                                       1
Postal Inspection Service’s Security                                          SA-AR-06-002
 Investigations Service Center



                                      Airline, FedEx, and Terminal Handling Service (THS)
                                       contractors maintain documentation for their
                                       employees.

                                 The documentation maintained by contractors is available
                                 for review by the Postal Inspection Service or the
                                 contracting officer upon request.

                                 Additionally, the Office of Personnel Management (OPM)
                                 provides investigative results to the Postal Inspection
                                 Service’s SISC staff based on search results from the
                                 Federal Bureau of Investigation (FBI) and Department of
                                 Defense databases and investigative files. In fiscal years
                                 (FY) 2003 and 2004, the SISC granted 48,778 and
                                 41,789 final clearances, respectively. In addition, in
                                 FY 2004, the SISC granted 5,211 interim sensitive security
                                 clearances.

                                 1510 Mail Loss/Rifling Program. Postal Service customers
                                 file complaints for mail loss or tampering using PS
                                 Form 1510. Depending on the customers’ geographic
                                 location, their complaints are sent to the respective Postal
                                 Inspection Service division for investigative follow up.

                                 Closed Case Files. The SISC maintains closed
                                 investigative case files for divisions within the geographic
                                 area for 2 years. After 2 years, the SISC transfers files to
                                 the Federal Records Center, which are retained for
                                 15 years.

                                 Freedom of Information Act Program. The SISC processes
                                 FOIA requests. When the SISC receives a FOIA request,
                                 SISC staff research, copy, track, and report the time it takes
                                 to assemble and forward the requests to Postal Inspection
                                 Service headquarters for processing.

 Objective, Scope, and           Our objective was to determine whether the Postal
 Methodology                     Inspection Service’s SISC effectively and efficiently
                                 supports the Postal Inspection Service’s mission.




                                                  2
Postal Inspection Service’s Security                                                        SA-AR-06-002
 Investigations Service Center



                                   To accomplish our objective, we interviewed Postal Service
                                   and Postal Inspection Service officials, including the
                                   inspector in charge, Group 1, and SISC’s security
                                   managers, supervisors, and technicians. Additionally, we
                                   reviewed policies and procedures for personnel security
                                   clearances, including Postal Service Administrative Support
                                   Manual 136, Handbook AS-805, Inspection Service Manual
                                   (ISM), Management Instructions and applicable federal
                                   regulations.

                                   Further, we reviewed and analyzed background security
                                   clearance information. We obtained this information from
                                   SISC personnel who stated this information was extracted
                                   from the SCTS.7 We assessed the reliability of the
                                   computer-processed data contained in the SCTS and noted
                                   several data integrity errors. Specifically, the SCTS had
                                   illogical date sequences, blank or unreasonable data fields,
                                   and missing records. However, we did not include the
                                   erroneous data in our analyses of background security
                                   clearances.

                                   Also, we performed comparative analyses between the
                                   OPM’s workload data and the SISC workload data to
                                   assess whether the SISC information on background
                                   security clearances was comparable to that of the OPM.
                                   Based on the analyses, the data was sufficiently reliable to
                                   support the findings and conclusions in this report.

                                   We also reviewed statistical and management reports of
                                   security clearance requests received and processed for
                                   FYs 2004 and 2005. Specifically, we obtained the OPM
                                   workload and average timelines to compare the number of
                                   background security requests the SISC submitted to the
                                   OPM to the background security information the SISC staff
                                   provided to the U.S. Postal Service Office of Inspector
                                   General (OIG).

                                   Further, we analyzed the average number of days8 for
                                   processing and granting interim and final security
                                   clearances and the average number of days it takes the


6
  Updated with Postal Bulletin revisions through October 28, 2004.
7
  SCTS is an automated system that monitors and tracks background security clearances and processes real-time
information that cannot be recaptured.
8
  Our analysis of interim and final clearances excluded computations resulting in a negative elapsed number of days
and number of days appearing to be unreasonable (for example, year 2020).


                                                         3
Postal Inspection Service’s Security                                                            SA-AR-06-002
 Investigations Service Center


                                    SISC to receive investigative results9 from the OPM. We
                                    did not assess the reliability of the data provided by the
                                    OPM. However, our comparison of the information provided
                                    by the SISC and that of the OPM determined that the
                                    investigative results were comparable. Therefore, we
                                    believe the data was sufficiently reliable to support the
                                    findings and conclusions in this report.

                                    In addition, we reviewed training records for employees
                                    responsible for processing and adjudicating personnel
                                    security clearances to determine whether employees
                                    receive periodic training. We also reviewed the SISC’s
                                    management of closed cases to determine whether files are
                                    adequately safeguarded and the SISC has an effective
                                    method of monitoring and tracking case files prior to
                                    transferring them to the Federal Records Center.

                                    Further, we benchmarked with the Department of Homeland
                                    Security, Transportation Security Administration (TSA) to
                                    determine processes and procedures for managing and
                                    issuing background security clearances. However, we did
                                    not independently verify information received from the TSA.

                                    We conducted this audit from October 2004 through
                                    April 2006,10 in accordance with generally accepted
                                    government auditing standards and included such tests of
                                    internal controls as we considered necessary under the
                                    circumstances. We discussed our observations and
                                    conclusions with management officials and included their
                                    comments where appropriate.

    Prior Audit Coverage            OIG report, Review of Personnel Security Controls at the
                                    Eagan, San Mateo, and St. Louis Information Technology
                                    and Accounting Service Centers (Report Number IS-AR-04-
                                    001, September 2004). The OIG determined that while
                                    initial security clearances were performed for all career
                                    Postal Service employees in the selected random sample,
                                    security clearance updates were not obtained for 20 Postal
                                    Service career employees holding sensitive positions. OIG
                                    recommended and management agreed to process security

9
  Investigative results consist of: (1) Fingerprint-based national criminal history search of the FBI database, (2) FBI
name check search of FBI’s investigative files, (3) Defense Clearance Investigative Index (DCII) search of
Department of Defense investigations, (4) OPM Security/Suitability Investigations Index (SII) search, and (5) Special
Agreement Checks with Inquiries, which are inquiries to obtain employment and law enforcement history and as
needed. Also, Military Personnel Records (MILR) are reviewed, as needed.
10
   This was partially due to waiting for the Postal Inspection Service to provide additional information on the
erroneous data in the SCTS, which we received in November 2005.


                                                           4
Postal Inspection Service’s Security                                         SA-AR-06-002
 Investigations Service Center


                                 clearance updates as required for all Postal Service
                                 employees assigned to sensitive positions at the San Mateo
                                 and St. Louis Information Technology and Accounting
                                 Centers.

                                 OIG report, Review of the Postal Service Security of the
                                 Mail during Anthrax Decontamination and Irradiation Efforts
                                 (Report Number OV-MA-02-001, April 2002), determined
                                 that management did not ensure that contract employees
                                 decontaminating Postal Service facilities and irradiating the
                                 mail obtained security clearances as required. Further,
                                 management could not provide evidence that the contractor
                                 conducted background checks for any of the contract
                                 employees reviewed. OIG recommended and management
                                 agreed to include a requirement for background security
                                 checks in future contract services for biohazard threats.

                                 OIG report, Review of United States Postal Service Security
                                 Program – Process for Updating Sensitive Clearances
                                 (Report OV-MA-99-001, March 1998), determined the
                                 Postal Inspection Service had not developed and
                                 implemented a system to ensure that sensitive clearances
                                 for non-Postal Inspection Service personnel are updated at
                                 least every 5 years as required by the Administrative
                                 Support Manual. OIG suggested and management agreed
                                 to develop and implement a system to ensure that sensitive
                                 clearances for non-Postal Inspection Service personnel are
                                 updated at least every 5 years.

                                 OIG report, Review of the United States Postal Service
                                 Personnel Security Program – Sensitive Clearances for
                                 Non-Inspector Positions (Report Number OV-MA-00-001,
                                 March 1998), disclosed the Postal Service’s process for
                                 determining the appropriate clearance level for non-Postal
                                 Inspection Service positions did not clearly establish who
                                 should determine sensitive clearance requirements, and the
                                 guidance did not clearly explain how to determine the
                                 appropriate clearance level.

                                 OIG suggested the Chief Postal Inspector issue guidance
                                 that clearly assigns responsibility for determining
                                 appropriate clearance levels and establishes how the
                                 determinations should be made. Although Postal Inspection
                                 Service management did not agree or disagree with the
                                 suggestion, management stated existing guidance could be




                                                  5
Postal Inspection Service’s Security                                         SA-AR-06-002
 Investigations Service Center


                                 clarified to identify who should determine security clearance
                                 requirements, and the appropriate clearance level.




                                                  6
Postal Inspection Service’s Security                                              SA-AR-06-002
 Investigations Service Center


                                              AUDIT RESULTS
 Security                           The SISC generally followed policies and procedures to
 Investigations                     effectively and efficiently support the Postal Inspection
 Service Center                     Service’s mission. Specifically, SISC staff safeguarded
 Generally Supports                 closed investigative case files against loss or theft and
 the Postal Inspection              maintained these files for divisions within their geographic
 Service’s Mission                  area for 2 years. After 2 years, these files are retained for
                                    15 years at the Federal Records Center. Also, SISC staff
                                    processed FOIA requests as required.11 All requests for
                                    information under FOIA should be sent to the Office of
                                    Counsel at Postal Inspection Service headquarters. SISC
                                    staff receives, researches, copies, tracks, and reports the
                                    time it takes to assemble and forward FOIA requests, and
                                    reports this information to Postal Inspection Service
                                    headquarters, Office of Counsel for processing.

                                    However, opportunities exist to improve the overall
                                    management of the Background Security Clearance
                                    Program, personnel security training, and the 1510 Mail
                                    Loss/Rifling Program to more effectively and efficiently
                                    support the Postal Inspection Service’s mission. During the
                                    audit, SISC staff initiated corrective actions to begin to
                                    address carryovers of background security clearance cases,
                                    personnel security training, and the 1510 Mail Loss/Rifling
                                    Program.

 Background Security                Postal Inspection Service officials could improve the overall
 Clearance Program                  management of the Background Security Clearance
                                    Program. Specifically, background investigation data
                                    provided by SISC staff showed the Postal Inspection Service
                                    had a carryover of approximately 9,700 open security
                                    clearance cases at the beginning of FY 2004, and
                                    18,300 open security clearance cases at the beginning of
                                    FY 2005. We discussed our results with SISC staff during
                                    the audit. Based on our results, SISC staff conducted
                                    further analyses and stated they identified an unexplainable
                                    glitch in the SCTS. According to SISC staff, this glitch
                                    resulted in the SISC staff providing the OIG with inaccurate
                                    information on background security clearances.

                                    Therefore, SISC staff requested that the OIG disregard the
                                    data we analyzed starting with the beginning of FY 2004, but
                                    instead analyze the data starting with the beginning of
                                    FY 2005. Additionally, in November 2005, SISC staff
11
     Postal Bulletin 2192911 dated September 26, 1996, ISM, Section 165.212.


                                                          7
Postal Inspection Service’s Security                                                      SA-AR-06-002
 Investigations Service Center


                                  provided the OIG with a FY 2005 status report, including
                                  background security data, which showed there were
                                  approximately 5,700 sensitive and nonsensitive open
                                  clearances as of October 21, 2005.

                                  After receiving the updated information from the SISC staff,
                                  the OIG determined the background security data provided
                                  beginning with FY 2004 was the same data that SISC had
                                  initially provided the OIG. Therefore, to further assess the
                                  data, the OIG analyzed the number of background
                                  investigation requests the SISC submitted to the OPM12 and
                                  determined the number of requests was comparable (by at
                                  least 90 percent) to those the SISC staff initially provided the
                                  OIG. The results follow:

                                     Table 1. Background Clearance Requests/Investigations
                                                      (SISC Versus OPM)

                                                                    SISC                OPM
                                                                 Submitted to        Submitted to
                                                     FY            OPM13               SISC14

                                                   2004             58,435              53,431
                                                   2005             65,484              59,548

                                  Unless the number of requests the OPM processed for the
                                  SISC staff was inaccurate, we cannot agree with
                                  management’s assertion that SISC staff provided the OIG
                                  with information beginning in FY 2004 that was inaccurate.
                                  However, based on the November 2005 information the
                                  SISC staff provided, we acknowledge they have initiated
                                  corrective actions to address the number of carryovers.
                                  Thus, as of October 21, 2005, the SISC had about
                                  5,700 open background investigation requests. Appendix A
                                  provides a schedule of open background investigation
                                  requests.

                                  Detailed Analyses of Background Security Clearances. As
                                  requested by the Postal Inspection Service, we modified our
                                  analyses to use background security data beginning with
                                  FY 2005. Based on information from the SISC staff and the
                                  SCTS, as of the beginning of FY 2005, the SISC had a

12
   Represents data provided by the OPM, “Workload Average Timelines for U.S. Postal Inspection Service in
Memphis, FY 2004 and up to July 2, 2005.” Therefore, we extrapolated the number of requests for the remaining
3 months of the fiscal year.
13
   Represents data provided by the OPM on background investigation requests the SISC submits to the OPM.
14
   Represents data provided by the OPM on completed background investigations the OPM sent to the SISC.


                                                        8
Postal Inspection Service’s Security                                                          SA-AR-06-002
 Investigations Service Center


                                   carryover of about 18,300 open background investigation
                                   cases, and about 5,700 open background investigation
                                   cases as of October 21, 2005. In addition, the SISC
                                   experienced a 10.8 percent increase in its workload from
                                   FYs 2004 to 2005. Appendix A gives a schedule of
                                   background investigation requests.

                                   Further, in FY 2004, the SISC granted 43,26115 final
                                   clearances, of which 41,78916 or 95 percent averaged
                                   78 calendar days to process and grant final clearances to
                                   contract employees. Additionally, the SISC granted
                                   5,21117 interim security clearances in FY 2004, which
                                   averaged 11 calendar days to process and grant interim
                                   clearances. This process was generally consistent with the
                                   SISC internal standard operating guidelines of 10 calendar
                                   days to process and grant clearances. Appendix B
                                   summarizes the average number of days to process and
                                   grant final and interim clearances in FY 2004.

                                   SISC management stated that projections of security
                                   clearance workloads are based on historical information and
                                   the knowledge of any new programs or changes to be
                                   implemented. However, SISC personnel stated that the
                                   Postal Service and Postal Inspection Service do not provide
                                   any reports, projections of new hires, or workload
                                   requirements to assist SISC management with more
                                   effectively assessing workload.

                                   Furthermore, SISC personnel stated any delays in
                                   processing background security clearance requests
                                   were primarily due to delays in receiving investigative
                                   results18 from the OPM. We analyzed statistics for
                                   background security clearance requests received from the
                                   OPM to estimate the average number of days to receive
                                   investigative results from the OPM.

                                   Based on our analyses of the 32,34119 security clearance
                                   requests the OPM processed for SISC in FY 2004, 28,365,

15
   The 43,261 final clearances granted excluded 43 final clearances granted based on reciprocity.
16
   The 41,789 excludes the 1,472 clearances with negative elapsed days.
17
   The 5,211 excludes the 164 clearances with negative elapsed days.
18
   Investigative results consist of fingerprint-based national criminal history searches of the FBI database; FBI name
check searches of the FBI’s investigative files; the DCII search of Department of Defense Department investigations;
searches of the OPM Security/Suitability Investigations Index (SII); Special Agreement Checks with Inquiries, in
which inquiries are sent to obtain employment and law enforcement history; and as needed, reviews of MILR.
19
   SISC records indicate 38,987 Case Closing Transmittals were received from the OPM in FY 2004. The OIG
excluded records in which the date submitted to the OPM preceded the date sent to the OPM, elapsed days were
negative, date fields were blank, and date fields were questionable.


                                                          9
Postal Inspection Service’s Security                                                                        SA-AR-06-002
 Investigations Service Center


                                   or 88 percent, were processed and returned to the SISC
                                   between 1 and 30 days, with an average of 19 calendar
                                   days. Therefore, we did not find major instances in which
                                   the OPM caused delays in issuing investigative results to the
                                   SISC. The following chart shows the average timeframes
                                   for the OPM to process the requests.

                                              Table 2. Percentages and Average Timeframes
                                                      for OPM Clearances Processed


                                                                        121-135 Days, (0.52%)

                                                      106-120 Days, (0.67%)                     136-150 Days, (0.42%)
                                             91-105 Days, (0.82%)                               151-165 Days, (0.25%)

                                             76-90 Days, (1.10%)                            166-180 Days, (0.18%)

                                        61-75 Days, (1.30%)
                                                                                                0 Days, (0.15%)
                                     46-60 Days, (1.96%)

                                     31-45 Days, (4.43%)


                                     16-30 Days,(20.10%)



                                                                                                                  1-15 Days, (67.60%)




                                                              Note: (20.10 + 67.60 = 87.70 percent);
                                                                      rounded to 88 percent



                                   Further, the Postal Inspection Service’s FY 2004 Annual
                                   Performance Plan20 identified an initiative for the Postal
                                   Inspection Service to continue an ongoing collaborative
                                   effort with the OPM to minimize delays in receiving National
                                   Agency Checks and ensure timely receipt of OPM reports.
                                   Therefore, any delays or carryovers would result in untimely
                                   requests and would not be consistent with the performance
                                   plan.

                                   Benchmarking Results. Our benchmarking results for
                                   similar searches and inquiries performed by the OPM
                                   determined that the average number of days to provide
                                   investigative results for the TSA was between 2 and
                                   65 days. Therefore, the amount of time it took for the OPM
                                   to provide investigative results to SISC was consistent with
                                   the timeframes for the TSA.



20
   The Annual Performance Plan is a guide for the Postal Inspection Service over a 12-month period that sets forth
operational and transformational objectives and provides a linkage between its long-term goals and the work that is
performed on a day-to-day basis.


                                                               10
Postal Inspection Service’s Security                                           SA-AR-06-002
 Investigations Service Center



                                Data Integrity Errors. The OIG further identified
                                6,646 records with data integrity errors for background
                                investigation data in the SCTS database. Although Postal
                                Inspection Service officials requested that we include all
                                records in our analyses, we did not include those records
                                with questionable or unreasonable dates because erroneous
                                data would distort the overall results of our audit. An
                                illustration of the errors follows:

                                              Table 3. SCTS and Erroneous Data

                                                                                  Records
                                                                                    with
                                             Description of Database Errors        Errors

                                        Blank Dates for Date Received                 1,141
                                        Negative Elapsed Days for Processing
                                        Security Clearances                           5,503
                                        Final Clearances Issued Showing a                 2
                                        Future Date

                                          Total Records with Errors                   6,646

                                The background investigation process is essential to
                                managing the inherent risk of allowing Postal Service
                                employees and other personnel access to sensitive or
                                proprietary information. To ensure effective management of
                                the security clearance process, security clearance data must
                                be consistent, accurate, and complete. This assists
                                management with making decisions regarding current
                                workload requirements and the overall management of the
                                Background Security Clearance Program.

 Recommendation                 We recommend the Chief Postal Inspector:

                                       1. Establish a comprehensive management plan to
                                          address erroneous data in the Security Clearance
                                          Tracking System and reduce its carryovers of
                                          background investigations.

 Management’s                   Management disagreed with this recommendation, stating
 Comments                       that the reason for blank dates, negative elapsed days for
                                processing, and final clearances showing future dates, was
                                data manipulation problems the OIG experienced when
                                conducting analysis of data they supplied to OIG via


                                                    11
Postal Inspection Service’s Security                                         SA-AR-06-002
 Investigations Service Center


                                compact disc, not because the data in the SCTS was
                                erroneous.

                                Management also stated that, “carryover” data is not the
                                same as “backlogged” or “delayed” data and that carryovers
                                will always exist from one day to the next, and thus from one
                                year to the next. Further, they said the recommendation
                                implied that average processing time was excessive, and
                                that nothing in the report supports that assertion. The SISC
                                security clearance processing time “from end-to-end” is
                                within processing standards, similar to other government
                                agencies.

 Evaluation of                  We disagree with management’s assertion that the OIG
 Management’s                   experienced data manipulation problems when conducting
 Comments                       analysis of security clearance data, resulting in blank dates,
                                future dates, and negative elapsed days for processing.
                                SISC officials provided the OIG with data on CD that could
                                not be modified (read-only); therefore, the OIG could not
                                manipulate the data. Further, SISC personnel provided the
                                OIG with a written summary of interim and final clearances
                                that we used to validate the data on the CD. Additionally,
                                during our review of security clearance data, we notified
                                SISC personnel of the erroneous data we identified and
                                excluded it from our analysis.

                                Additionally, the OIG did not conclude or report that
                                processing times were excessive. The OIG concluded that
                                carryovers in FYs 2004 and 2005 did not result from delays
                                in processing background security clearances by OPM.
                                Further, based on additional analyses, SISC staff did not
                                process requests in FY 2005 as quickly as they received
                                them, and in FY 2006, the backlog appeared to grow. For
                                example, in FY 2005, the average number of requests was
                                about 6,940 and the average number completed was about
                                5,280, resulting in an average carryover of about 1,660 per
                                month. Although management did not agree with this
                                recommendation, we do not plan to pursue this
                                recommendation through the formal audit resolution
                                process.

 Personnel Security             SISC security personnel managing and implementing
 Training                       personnel security policies have not received formal
                                personnel security training within the past 5 fiscal years.
                                This occurred because the Postal Inspection Service is not
                                required to provide annual and refresher training to staff who


                                                 12
Postal Inspection Service’s Security                                           SA-AR-06-002
 Investigations Service Center


                                process security clearance requests. The Postal Inspection
                                Service follows the guidelines and procedures for training
                                outlined by the Postal Service’s Corporate Training and
                                Development Department in the Employee and Labor
                                Relations Manual (ELM) 710. The ELM requires that
                                employees be provided with both formal and informal
                                learning experiences that contribute to individual growth and
                                improve performance in current and future jobs.

                                Our review of training records from FY 2000 to the
                                third quarter of FY 2005 determined that 12 of the
                                15 employees who processed background security
                                clearances had not received training in personnel security
                                or the security clearance process in the past 5 fiscal years.
                                The remaining three employees received internal on-the-job
                                training from the SISC security staff.

                                Postal Inspection Service management stated the SISC has
                                a Process Management Review Team that reviews all
                                current processes, including the background security
                                clearance program. In addition to reviewing the process, the
                                team interviews employees to determine whether they have
                                the tools needed to perform their job responsibilities. The
                                SISC has also adopted a quality assurance program, which
                                requires a supervisor to review every case that involves a
                                denial and every 20th case for all specialists.

                                Postal Inspection Service management acknowledged the
                                importance of employees receiving annual and refresher
                                training to maintain skills, applying consistent standards and
                                processes, and identifying and discussing changes that
                                affect security and the SISC’s and Postal Inspection
                                Service’s mission. Without annual and refresher training,
                                SISC security personnel could miss opportunities to identify
                                emerging trends with personnel security, which could pose a
                                risk to the Postal Service’s security interests. During the
                                audit, SISC staff initiated corrective actions to obtain
                                supplemental personnel security training for SISC
                                employees.

 Recommendation                 We recommend the Chief Postal Inspector:

                                       2. Ensure Security Investigations Service Center
                                          security personnel are provided formal annual and
                                          refresher training to supplement personnel security
                                          training.


                                                    13
Postal Inspection Service’s Security                                            SA-AR-06-002
 Investigations Service Center




 Management’s                       Management agreed with this recommendation, stating
 Comments                           supervisors and managers will obtain annual background
                                    clearance training through the OPM, U.S. Department of
                                    Agriculture, or other acceptable sources. Also, the SISC will
                                    continue to look for ways to improve and streamline the
                                    security clearance process.

 Evaluation of                      Management’s comments and planned corrective actions
 Management’s                       are responsive and satisfy the intent of the recommendation
 Comments                           and should correct the issues identified in the finding.

 1510 Mail Loss/Rifling             The Postal Inspection Service’s 1510 Mail Loss/Rifling
 Program                            Program is being implemented as required.21 The Postal
                                    Inspection Service’s Service Centers (formerly known as
                                    Postal Inspection Service Operations Support Groups)
                                    manage the 1510 Program. Postal Service customer
                                    complaints regarding mail loss, theft, and tampering are
                                    forwarded to the appropriate service center responsible for
                                    the geographical area in which the complaints were mailed.

                                    SISC personnel determine whether the alleged item
                                    reported as lost, stolen, or tampered with is attractive or
                                    unattractive and, depending upon the customer’s address,
                                    distribute the complaint to the appropriate Postal Inspection
                                    Service division for investigative follow up. Those
                                    complaints that are deemed unattractive are destroyed at
                                    the SISC.

                                    Specifically, in FY 2004, the SISC received 37,852 PS
                                    Form 1510 complaints of which 16,247, or 43 percent, were
                                    deemed unattractive, not reviewed by an inspector, and
                                    subsequently destroyed. Thus, Postal Inspection Service
                                    inspectors, who are responsible for investigating these
                                    complaints, did not have the opportunity to review the
                                    complaints and assess investigative leads. As a result,
                                    inspectors could be missing opportunities to initiate viable
                                    investigations.

                                    In addition, Postal Service customers were not aware their
                                    complaints were being destroyed. If Postal Service
                                    customers were aware of this practice, they could lose
                                    confidence in the Postal Service and divert their business to
                                    other mail service providers, resulting in potential loss of

21
     Postal Bulletin 22013, dated December 16, 1999.


                                                       14
Postal Inspection Service’s Security                                          SA-AR-06-002
 Investigations Service Center


                                revenue to the Postal Service and compromising the Postal
                                Service’s reputation.

                                After providing Postal Inspection Service officials our audit
                                results, they initiated corrective actions to address the
                                issues with the 1510 Mail Loss/Rifling Program. The
                                officials advised all PS Forms 1510 will be forwarded to the
                                Postal Inspection Service Criminal Investigative Service
                                Center (CISC) and sent to the appropriate division for the
                                inspectors to review. We will further assess the 1510 Mail
                                Loss/Rifling Program during our future audit of the CISC.

 Recommendation                 We recommend the Chief Postal Inspector:

                                       3. Ensure Postal Inspection Service inspectors review
                                          all PS Form 1510, Mail Loss/Rifling, complaints
                                          before the complaints are destroyed.

 Management’s                   Management agreed with this recommendation and stated
 Comments                       Postal Inspectors use the Financial Crimes Database (FCD)
                                as an investigative tool for review and analysis of mail loss
                                reports. Included in the database are mail loss reports
                                received by Postal Service call centers, mail loss complaints
                                entered online via the Internet, and paper PS Forms 1510
                                manually input into the database. Additionally, effective
                                October 1, 2005, the CISC began consolidating and sending
                                all paper PS Forms 1510 to the appropriate field divisions for
                                input in the FCD and subsequent review by inspectors.

 Evaluation of                  Management’s comments and planned corrective actions
 Management’s                   are responsive and satisfy the intent of the recommendation
 Comments                       and should correct the issues identified in the finding.




                                                   15
Postal Inspection Service’s Security                                                          SA-AR-06-002
 Investigations Service Center


      APPENDIX A. FISCAL YEARS 2004 AND 2005 SCHEDULE OF
      SECURITY INVESTIGATIONS SERVICE CENTER OPEN CASES




                                                                          FY           FY
                                      Description                        2004         2005

                      Beginning Balance for FY                            9,731 18,389
                                                                                       22
                      Cases Added during FY                              58,435 65,484

                        Total:                                           68,166 83,873

                      Less Cases Completed during FY                     49,777 69,14323

                      Total Open Cases:
                       (As of Beginning of the FY)                       18,389 14,730

                      Total Open Cases:
                       (As of October 21, 2005)                                       5,766




22
  Represents a 10.8 percent increase from FYs 2004 to 2005.
23
  This total does not include top secret clearances granted, top secret clearances updates, updates granted, denials,
and disqualifications.


                                                         16
Postal Inspection Service’s Security                                                        SA-AR-06-002
 Investigations Service Center


     APPENDIX B. FISCAL YEAR 2004 AVERAGE NUMBER OF DAYS24
                TO PROCESS AND GRANT FINAL AND
                  INTERIM SECURITY CLEARANCES
                                        FY 2004 Final Clearances

                                                                                 Average      Percentage
                                               Number of         Number          Number         of Total
                   Category25                  Clearances        of Days         of Days      Clearances

        CONTRACT EMPLOYEES:
        Ground Handlers                               1,543        151,873               98
        HCR Drivers                                  12,173      1,087,189               89
        APS/Pinkerton                                    64          5,086               79
        THS                                             995         77,060               77
        Airline                                      19,337      1,468,621               76
        Contract USPIS                                  279         13,434               48
        Contract USPS                                 4,593        249,147               54
        Unarmed Security Guard                          113          7,827               69
        Other26                                         439         17,360               39
          Subtotal:                                  39,536      3,077,597               78             95

        CAREER EMPLOYEES:
        USPIS                                           155          7,460               48
        Casual USPS                                     625         21,761               35
        USPS                                            438         28,633               65
        Other27                                       1,035         23,887               23
         Subtotal:                                    2,253         81,741               36               5

        TOTAL:                                       41,789      3,159,338               76            100




24
   Average number of days equals the total number of days divided by the total number of clearances.
25
   HCR – Highway Contract Route, APS – No Definition for the Acronym, and THS – Terminal Handling Service.
26
   Includes contract employees for the Call Center, CAS Airline, contract fraud analysts, Hub and Spoke Program
(HASP), Y2K (Year 2000), and Wackenhut.
27
   Includes blank fields (categories that were not identified).




                                                        17
Postal Inspection Service’s Security                                                      SA-AR-06-002
 Investigations Service Center



                                       FY 2004 Interim Clearances

                                                                             Average      Percentage
                                             Number of         Number        Number         of Total
                     Category                Clearances        of Days       of Days      Clearances

          CONTRACT EMPLOYEES:
          Call Center                                  432         2,810              7
          Unarmed Security Guard                       141         1,981             14
          Contract USPS                              3,749        37,693             10
          Contract USPIS                               199         3,225             16
          Other28                                       85         2,642             31
           Subtotal:                                 4,606        48,351             10             88

          CAREER EMPLOYEES:
          USPS                                         339         5,822             17
          USPIS                                         72         1,233              9
          Other29                                      194         1,927             10
           Subtotal:                                   605         8,982             15             12

          TOTAL:                                     5,211        57,333             11            100




28
   Includes contract employees for the APS/Pinkerton, CAS Airline, contract fraud analysts, Hub and Spoke Program
(HASP), Y2K (Year 2000), Wackenhut, ground handlers, casual USPS, and HCR drivers.
29
   Includes blank fields (categories that were not identified) and a security control officer (SCO).




                                                       18
Postal Inspection Service’s Security              SA-AR-06-002
 Investigations Service Center


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                       19
Postal Inspection Service’s Security        SA-AR-06-002
 Investigations Service Center




                                       20
